os
I

C@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B rieds contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
Nos. 20-37, 20-38
NORRIS COCHRAN, ACTING SECRETARY

OF HEALTH AND HUMAN SERVICES, ET AL.,
Petitioners,

v.
CHARLES GRESHAM, ET AL.,
Respondents.

 

STATE OF ARKANSAS,
Petitioner,
Vv.
CHARLES GRESHAM, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF TEXAS
MEDICAL-LEGAL PARTNERSHIPS AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 7801 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 25th day of February, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL MOTARY-State of Nebraska & a fj d,
i RENEE J. GOSS O. ¢ dex adres f

 

i ‘Comm. Exp. September 5, 2023
My:

Notary Public Affiant 40626
